BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief of
Amicus Curiae Cato Institute in Support of
Respondent in 20-1029, City of Austin, Texas, v.
Reagan National Advertising of Texas, Incorporated, et
al., were sent via Two Day Service to the U.S.
Supreme Court, and 3 copies were sent via Two Day
Service and e-mail to the following parties listed
below, this 29th day of September, 2021:
Renea Hicks
Law Office of Max Renea Hicks
4112 Ramsey Ave.
Austin, TX 78756
(512) 480-8231
rhicks@renea-hicks.com
Michael R. Dreeben
O'Melveny & Myers LLP
1625 Eye Street, NW
Washington, DC 20006
(202) 383-5300
mdreeben@omm.com
Counsel for Petitioner
Kannan K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

J. Allen Smith
SettlePou
3333 Lee Parkway
8th Floor
Dallas, TX 75219
(214) 520-3300
asmith@settlepou.com
Counsel for Respondent
Lamar Advantage Outdoor Company, L.P., doing
business as The Lamar Companies
Russ Horton
George Brothers Kincaid & Horton, LLP
114 West 7th St.
Suite 1100
Austin, TX 78701
(512) 495-1400
r horton@gbkh.com

Counsel for Respondent
Reagan National Advertising of Austin, LLC
Eugene Volokh
Counsel of Record
First Amendment Clinic
UCLA School of Law
385 Charles E. Young Dr. E
Los Angeles, CA 90095
(310) 206-3926
volokh@law.ucla.edu

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 29, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ hq 2.1 1

c}-Oc]-(

cfi6,fJ, ~

Notary Public
[seal]

